                                                                       Office ofhspector General
                                                                       Atlatltu F ~ e l dOfice -Aud~tD i w m

                                                                       t1.S. Department of Homeland Sccnrity
                                                                        .,
                                                                       3003 Chanlblee Tucker Rd
                                                                                n,




                                                          August 1,2005

MEMORANDUM

TO:                 Joseph F. Picciano


FROM:
                    Field Office Director

SUBJECT:            Municipality of Coamo
                    FEMA Disaster No. 1247-DR-PR
                    Audit Report No. DA-22-05


The Office of Inspector General (OIG) conducted an audit of public assistance funds
awarded to the Municipality of Coamo, Puerto Rico. The objective of the audit was to
determine whether the Municipality accounted for and expended FEMA funds according
to federal regulations and FEMA guidelines.

The Municipality received an award of $3.8 million from the Puerto Rico Office of
Management and Budget, a FEMA grantee, to remove debris, provide emergency
protective measures, and repair roads and other public facilities damaged as a result of
Hurricane Georges in September 1998. The award provided 90 percent FEMA funding
for 4 large projects and 87 small projects'. The audit covered the period of September
1998 to December 200 1. During this period, the Municipality claimed $3,8O 1,415 (See
Exhibit A) and received $2,8 15,814 of FEMA funds.

We performed the audit under the authority of the Inspector General Act of 1978, as
amended, and according to generally accepted government auditing standards. The audit
included test of the Municipality's accounting records, a judgmental sample of
expenditures, and other auditing procedures considered necessary under the
circumstances.


1
    Federal regulations in effect at the time of the disaster set the large project threshold at $47,100.
                                 RESULTS OF AUDIT 


The Municipality's claim included $1,031,165 (FEMA share $928,049) of costs that we
questioned, resulting fiom excessive and unsupported charges, duplication of benefits,
and incomplete implementation of large and small projects.

A. Excessive and Unsupported Char~es.The Municipality's claim included excessive
   and unsupported charges totaling $494,610, as follows:

   1. The Municipality's claim of $2,025,000 for transporting debris to a temporary
      storage site was overstated by $463,833. Federal regulation (44 CFR 13.20)
      requires subgrantees to maintain supporting documentation for all charges under
      FEMA projects. For debris removal activities, this includes the maintenance of
      load tickets to reflect the amount of debris delivered to a temporary storage site
      (FEMA Guide 325).

       The Municipality claimed $2,025,000 under Project 0066 1 to compensate a
       private contractor for transporting 75,000 cubic yards of debris, at $27 per cubic
       yards, to a temporary storage site. We determined that the Municipality claim
       was based on truckload capacity and the number of trips made by the trucks
       during debris removal operations. However, load tickets were not available to
       document the amount of actual debris hauled.

       FEMA, through a mission assignment, had the United States Corps of Engineers
       (USCOE) transport the debris from a temporary site to a final disposal site. The
       USCOE records showed that only 42,205 cubic yards of debris was transported
       under this effort.

       In situations where a grant recipient fails to record actual debris delivered to a
       temporary site, FEMA policy (established by FEMA's Caribbean Office on
       February 19, 1999) provides for payment based on the amount removed from the
       temporary site for disposal at a final site, plus an additional 37 percent for the
       estimated extent of compaction while stored at the temporary site. Thus, the
       Municipality was entitled to compensation of $l,56 1,167 for a total of 57,82 1
       cubic yards of debris (42,205 cubic yards plus 37 percent compaction equal
       57,821). Therefore, we question the excess charges of $463,833 ($2,025,000
       minus $1,561,167).

    2. Contrary to federal regulation (44 CFR 13.20), the Municipality failed to maintain
       supporting documentation for force account equipment charges of $30,777.

       Under debris removal Project 00662, the Municipality's claim of $320,008
       included $49,017 for temporary employees, $235,621 for rented equipment, and
       $35,370 for force account equipment. The Municipality had documentation to
       support charges for temporary employees and rented equipment (i.e. invoices,
       equipment utilization records, payroll, cancelled checks, etc.)
      However, for the force account equipment charges, the Municipality had
      summary equipment records to support only $4,593. Accordingly, we question
      the $30,777 of unsupported force account equipment charges.

B. Duplication of Benefits. The Stafford Act does not allow duplication of benefits
   between FEMA programs and any other assistance program, or damages covered by
   insurance. The Municipality's claim, however, included $189,32 1 that was
   duplicated through other sources, as illustrate below:

   1. The Municipality received $17,134 under three small projects to replace asphalt
      on various roads. However, the Municipality also received $ 9,676 from the
      United States Department of Housing and Urban Development (HUD) for the
      same activities. The FEMA projects that received duplicate funding were:
      FEMA      FEMA                                                          Duplicate
      Proiect * F                             Location                        Fundine        HUD Proiect

       00723    $1 1,802   Zanja Blanca Sector, Santa Catalina Ward, PR 553     $4,940    HUD 03-FC-18-001
       00726       1,252   Los Cilantros Sector, PR 150 Interior                   656    HUD 03-FC-18-001
       00727      4.08o    Descalabro Sector, PR 150 Krn 15 Off Road             4,080    HUD 03-FC-18-001

        Total   $17; 134                                                        $ 9.676


       Therefore, we question the $9,676 of duplicate benefits.

   2. FEMA mistakenly funded the same activities under more than one project,
      resulting in duplicate funding of $168,359, as follows:

           Under Project 00720, FEMA provided $1,895 for road repair activities that
           included the replacement of asphalt at Rio Chiquito Municipal Road.
           However, FEMA also provided $1,175 under Project 0072 1 for the
           replacement of asphalt on the same road. We question the $1,175 duplicated
           under Project 0072 1.

           The Municipality received $10,140 under Project 02 148 to replace asphalt and
           construct a retaining wall at Valle Hermoso Municipal Road; however, the
           same activities were funded with $10,176 under Project 02 101. We question
           the $10,140 of duplicate funding under Project 02 148.

           The Municipality received $29,958 under Project 02142 for road repair
           activities (retaining wall, asphalt, guardrails, etc.) at Quebrada Arriba Ward.
           However, the Municipality also received $29,008 under Project 02096 to
           perform the same activities. We question the $29,008 of duplicate funding
           under Project 02096.

           FEMA approved $44,69 1, under Project 08656, for road repair activities,
           including the replacement of asphalt, the removal and installation of a
           corrugated metal pipe, the removal and construction of a headwall, and the
           installation of gabions at Hoya Fria Municipal Road. However, under Project
           02120, FEMA also provided $37,482 for the same activities. We question the
           $37,482 of duplicate funding under Project 02120.

           Under Project 11404, the Municipality received $43,628 for road repair
           activities, the replacement of asphalt and the removal and construction of a
           sidewalk at Los Llanos Ward. However, the Municipality also received
           $23,9 17 under Project 02 110 to perform these activities. We question the
           $23,9 17 of duplicate funding.

       e   The Municipality claimed and received $66,637, under large Project 10799, to
           construct a temporary access road and a permanent bridge at La Mora Sector.
           FEMA also provided $9,764 under small Project 02097, and $35,683 under
           small Project 02150 for the same activities. We found that the Municipality
           implemented these activities under the two small projects and not under the
           large project. Accordingly, we question the $66,637 of duplicate funding
           under large Project 10799.

   3. The Municipality is responsible for pursuing full insurance recoveries and
      crediting FEMA projects with all applicable proceeds. However, the
      Municipality's claim included $1 1,286 of charges covered by insurance.

       The Municipality received $8,816 under Project 00236 for repairs to a Baseball
       Park at Palmarejo Ward (a bleacher, a grandstand, an electric pole, etc.).
       However, although insured, the Municipality did not pursue insurance recoveries
       for these repairs. Therefore, we question the $8,816 for losses that were fully
       insured.

       Also, under Project 07502, the Municipality received $24,670 that included
       $2,470 to replace a wood sign at the Miguel Carattini Recreational Facility.
       However, we determined that the Municipality received insurance payment for
       the wood sign, thus alleviating the need for FEMA funds. Accordingly, we
       question the $2,470 duplicate payment.

C. Incomplete Implementation of Small and Large Projects. As a result of field
   inspections and record review, we found that work valued at $347,234 under several
   small projects and a large project was not implemented.

   1. In accordance with federal regulations (44 CFR 206.205(a)), the grantee provided
      the Municipality 100 percent FEMA funding for small projects at the time small
      projects were awarded. This regulation requires the Municipality to certify that
      small projects have been completed in accordance with the approved scope of
      work. Federal payments are to be refunded if all work is not completed.

       However, we determined that the Municipality's claim of $657,969 under several
       small projects, included work valued at $33 1,875 that was certified as completed,
       but was not performed. Accordingly, we questioned these charges (See Exhibit
       B).
   2. Under large Project 02149, FEMA awarded and the Municipality claimed $64,413
       to repair a bridge at Villa Norat. We determined that the Municipality's claim
       included $15,359 for services that were not performed. Specifically, the
      'Municipality entered into a contract to repair the bridge and also perform certain
       mitigation work authorized under the project. The mitigation work consisted of
       constructing two box culverts, demolishing two wing walls, and installing a
       guardrail on the bridge. However, according to FEMA's final inspection report,
       dated November 2004, the mitigation work was not performed by the contractor.
       Accordingly, we question the $15,359 claimed.


                                  RECOMMENDATION

The OIG recommends that the Regional Director, in coordination with the grantee,
disallow the $1,03 1,165 of questioned costs.

         DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOW-UP

The results of the audit were discussed with Municipality officials on June 10, 2005, and
with FEMA and grantee officials on June 15 and 16, 2005, respectively. Municipality
officials agreed with Findings A and B, but withheld comment on finding C pending
receipt of the audit report.

Please advise the Atlanta Field Office-Division by October 3, 2005, of the actions taken
to implement the OIG recommendations. Should you have any questions concerning this
report, please contact me at (770) 220-5242 or Salvador Maldonado-Avila at (787) 294-
2532.
                                                                       Exhibit A
                                                                    (Page 1 of 2)
                     Municipality of Coamo
                  FEMA Disaster 1247 DR-PR
             Schedule of Claimed and Questioned Cost

Project     Amount        Amount         Amount
Number      Awarded       Claimed       Questioned

                 Large Projects

 00661      $2,025,000    $2,025,000                   Finding A
 00662         320,008       320,008                   Finding A
 02149          64,4 13       64,4 13                  Finding C
 10799          66,637        66,637                   Finding B

Sub-Total   $2,476,058    $2,476,058

                 Small Projects

 00232                                                 Finding C
 00236                                                 Finding B
 00239                                                 Finding C
 007 19                                                Finding C
 00720                                                 Finding C
 0072 1                                                Finding B
 00722                                                 Finding C
 00723                                                 Finding B
                                                       Finding C
 00724                                                 Finding C
 00725                                                 Finding C
 00726                                                 Finding B
 00727                                                 Finding B
 00728                                                 Finding C
 00729                                                 Finding C
 02096                                                 Finding B
 02098                                                 Finding C
 02099                                                 Finding C
 02 100                                                Finding C
 02101                                                 Finding C
 02 102                                                 Finding C
 02 104                                                 Finding C
 02106                                                  Finding C
 02 107                                                 Finding C
 021 10                                                 Finding B
 021 14                                                 Finding C
 021 18                                                 Finding C
 02 120                                                 Finding B
 02122                                                  Finding C
 02123                                                  Finding C
 02125                                                  Finding C
                                                                          Exhibit A
                                                                       (Page 2 of 2)
                         Municipality of Coamo
                      FEMA Disaster 1247 DR-PR
                 Schedule of Claimed and Questioned Cost

 Project        Amount       Amount       Amount
 Number         Awarded      Claimed     Questioned

   02128                                                   Finding C
   02131                                                   Finding C
   02 132                                                  Finding C
   02134                                                   Finding C
   02135                                                   Finding C
   02138                                                   Finding C
   02139                                                   Finding C
   02140                                                   Finding C
   02141                                                   Finding C
   02 142                                                  Finding C
   02146                                                   Finding C
   02148                                                   Finding B
   07502                                                   Finding B
   08656                                                   Finding C
Other Small
Projects (43)

 Sub-Total

   Total
                                                         Municipality o f Coamo                                                                Exhibit B
                                                      FEMA Disaster 1247 DR-PR
                                                     Small Project Not Imvlemented

Project        Amount         Amount
Number         Awarded      Ouestioned                            Location                                      Activities Not hulemented

 00232     $     43,641      $   43,641     Villa Norat Sector                                    Bridge Repair
 00239            7,738             376     Sabana Hoyos Baseball Park                            Realign Bleachers Columns

 00719           31,180           16,913    Rio Chiquito Municipal Road (PR 150 KM 18.5)          Replace Asphalt, Aggregate Base and Scarification,
                                                                                                  Shaping and Compacting
 00720            1,895             717     Rio Chiquito Municipal Road- Off Road PR 150          Replace Asphalt, Aggregate Base and Scarification,
                                            1.2 miles inside                                      Shaping and Compacting
 00722            5,696            2,817    Rio Chiquito Municipal Road -Off Road 150             Replace Asphalt, Aggregate Base and Scarification,
                                                                                                  Shaping and Compacting
 00723           11,802            3.185    Zanja Blanca Sector, Santa Catalina Ward, PR 553      Construct Concrete Swales and a Slope Protection,
                                                                                                  Excavation and Backfill
 00724            9,802            4,736    El Rio Rural Road, Santa Catalina Ward                Replace Asphalt
 00725            3,724            3,724    Rio Jueyes Sector, San Idelfonso Ward                 Remove Debris, Replace Backfill, Construct a Concrete
                                                                                                  Sidewalk and a Rip Rap
 00728            5,252             868     Santa Catalina Ward (PR 150 KM 16.1)                  Replace Asphalt

 00729            1,686              185    La Escritura Municipal Road (PR 150 KM 16.2)          Replace Asphalt
 02098            5,389            5,389    Quebrada Aniba Sector                                 Temporary Bridge
 02099            5,389            5,389    Villa Norat Sector                                    Temporary Bridge

 02 100          37,107            9,930    Quebrada Aniba Road (PR 555 KM 1.3 Site 3 and 4)      Replace Asphalt and Construct a Reinforced Concrete
                                                                                                  Swales and a Rip Rap
 02101           10,176            6,646    Valle Hermoso Municipal Road                          Replace Asphalt and Constrcut a Reinforced Concrete
                                                                                                  Headwall
 02 102          29,092            2,060    La Pollera Sector PR 553. Santa Catalina Ward         Replace Asphalt, Aggregate Base and Scarification,
                                                                                                  Shaping and Compacting
 02104           14,148            1,035    Rio Chiquito Municipal Road- Off Road PR 150 KM       Replace Asphalt, Aggregate Base and Scarification,
                                            0.7 and 1.5 miles inside                              Shaping and Compacting and Construct a Concrete
                                                                                                  Structure
 02106           3 1,863           6,000    Quebrada Aniba (PR 555 KM 1.3, Site 6B and 6C)        Construct 500 If of Side Ditch

 02107           24,779           10,428    Quebrada Arriba (PR 555 KM 1.3, Site 7,8,9, and 10)    Construct 869 If of Side Ditch

 021 14          40,252            7,975    Sabaneta Municipal Road, Pedro Garcia Ward             Remove and Install 20 If of a 36' CMP and Structural
                                            (Site 4)                                               Walls
 02118           20,076            8,784    Municipal Road and Park Area, Pedro Garcia Ward        Replace Asphalt, Aggregate Base and Scarification,
                                                                                                   Shaping and Compacting and Remove and Install 2 0 If of
                                                                                                   a 36" CMP
 02122           36,990           13,345     Julito Santiago Municipal Road, Santa Ana Ward        332 cy of Excavation, Construct a Concrete Curb Gutter,
                                                                                                   Remove a 60" RCP and Replace Asphalt
 02 123           13,238          13,238     Municipal Road, Rincones Sector,                      Remove a Concrete Slab, Remove a 30" CMP, Remove
                                                                                                   Headwalls and Install a 30' CMP
 02 125           12,190          12,190     Palmarejo Ward Asomante Sector                        Replace Asphalt, Aggregate Base and Scarification,
                                                                                                   Shaping and Compacting
 02128            3 1,047          11,460    Turquia Sector (Site 1 and 4)                         Remove 2 Pipes 24", Construct a Curb Gutter and
                                                                                                   Remove a 36" RCP
 02131           23,908            6,2 19    La Mora Municipal Road, Coamo Arriba Ward             Replace 1,309.23 syhn of Asphalt
                                             (PR 555 W 8.9)
  02 132          15,305            7,583    Los Rolones Path, Cuyon Ward                          Replace Asphalt, Aggregate Base and Scarification,
                                                                                                   Shaping and Compacting
  02134            3,848            3,848    Los Nazarios Municipal Road                           Replace Asphalt, Aggregate Base and Scarification,
                                                                                                   Shaping and Compacting
  02135           22,3 13          15,822    Sabaneta Municipal Road, Pedro Garcia Ward            Construct a Headwall and Replace Asphalt
                                             (Site 5 and 6)
  02138            1,192            1,192    San Luis Sector. Pueblo Ward                          Replace Asphalt, Aggregate Base and Scarification,
                                                                                                   Shaping and Compacting
  02139            2,834            2,834    Sabana Hoyos Baseball Park                            Roof Replacement, Remove and Repair a Chain Link
                                                                                                   Fence and Debris Removal
  02 140          32,559           15,124    Las Calabazas Municipal Road, Calabazas Sector        Install a Guard Rail, Repair a Floor Slab and a Railing
                                                                                                   Post
  02141           46,034           34,256    El Quenepo Road                                       Remove 3 RCP 48" and Replace 3 CMP 48"

  02142           29,958           29,958    Quebrada Aniba Sector, Coamo Arriba Ward               Construct a Retaining Wall, Walls and Guardrail and
                                                                                                    Replace Backfill
  02146            1,175             717     Rio Chiquito Municipal Road, (PR 150 KM 15.5)          Replace Asphalt, Aggregate Base and Scarification.
                                                                                                    Shaping and Compacting
  08656           44,691           23.291    Hoya Fria Municipal Road                               Excavation, Install Gabions, Replace Asphalt Aggregate
                                                                                                    Base Course, Backfill, Cleaning a 36" Sewer Pipe, Install
                                                                                                    a 36" RCP, Bridge Railing and Structural Concrete
  Total         $657.969         $331.875
